No. 20-727

Jn tlJt hpmnt C!tnurt nf tlJt lnittlr &tatts
FACEBOOK, INC.,

Petitioner,

v.
PERRIN AIKENS DAVIS, et al.,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Patrick J. Carome, a member of
the bar of this Court, certify that the accompanying Brief for Internet Association,
Chamber of Commerce of the United States of America, Software and Information
Industry Association, and Computer and Communications Industry Association as
Amici Curiae in Support of Petitioner contains 5,953 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.l(d).
Executed on December 28, 2020.

PATRICKJ. CAROME

Counsel of Record

/

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
patrick.carome @wiJmerhale.com

